                  Testimony of

                 David Smith
           Deputy Inspector General

          U.S. Department of Commerce


                   before the

House Committee on Science, Space, and Technology

           Subcommittee on Oversight


      Top Challenges for Science Agencies:
   Reports from the Inspectors General, Part 1


                February 28, 2013
Chairman Broun, Ranking Member Maffei, and Members of the Subcommittee:

I appreciate the opportunity to testify today about the Department of Commerce’s top
management challenges in FY 2013. The Department plays a pivotal role in implementing the
President’s initiatives for economic recovery and job creation and, like other federal agencies,
faces significant financial uncertainties in the upcoming year. Our Top Management Challenges
report identifies what we consider, from our oversight perspective, to be the most significant
management and performance challenges facing the Department.

We identified five major challenges that represent cross-cutting issues with a focus on
the President’s most important goals and longstanding departmental management
concerns.

1. Stimulate Economic Growth in Key Industries, Increase Exports, and Enhance Stewardship
   of Marine Fisheries

The Department is at the center of the federal government’s efforts to stimulate
economic and job growth in key industries and promote exports, while at the same time
regulating exports and maintaining the delicate balance between promoting and regulating
the commercial use of marine fisheries. These efforts require the Department to work
effectively with interagency partners and the private sector as well as to marshal and
integrate Commerce resources. We have identified three areas for management
attention:

                     •   stimulate economic growth in manufacturing, intellectual
                         property, and wireless industries

                     •   promote and regulate exports

                     •   protect and promote marine fisheries

2. Increase Oversight of Resources Entrusted by the Public and Invest for Long-Term Benefits

The Joint Select Committee on Deficit Reduction was tasked with seeking $1.5 trillion in
government-wide savings over the next 10 years. The Committee did not agree on
spending reductions, resulting in a potential sequestration that will trigger across-the-
board budget cuts beginning in March 2013. Departmental programs will be deeply
affected. As the Department prepares for this extended period of tighter budgets and
decreased spending, it is more important than ever to understand the risks associated
with making trade-offs in allocating resources between the implementation of programs
and the oversight of those programs.

Also, after experiencing significant cost increases in the last decennial (from $8.2 billion
to $12.8 billion between 2000 and 2010 decennials), the Census Bureau—a
Departmental component—has vowed to contain cost of the 2020 decennial by making
critical design decisions by the end of FY 2014. However, it has already encountered
significant challenges in achieving this goal. While the nation is facing significant financial


                                                   2
hardship, the Department and Census Bureau simply cannot afford to repeat the cost
growth experienced over prior decennials. We have identified three areas for
management attention during a period of funding uncertainty:

                    •   increase internal controls and oversight of Departmental
                        operations under a constrained budget

                    •   invest for efficiencies and long-term benefits

                    •   implement bold design changes to contain 2020 decennial costs
                        while maintaining enumeration quality

3. Strengthen Security and Investments in Information Technology

In FY 2012, the Department planned to invest $2.4 billion in IT. This is about 25 percent
of its annual budget and one of the highest percentages devoted to IT among all civilian
agencies. The Department and its constituent bureaus rely on IT to support major
mission activities, such as producing the constitutionally mandated decennial census;
releasing vital economic statistics (e.g., the gross domestic product and consumer
spending); granting patents and trademarks; issuing severe weather alerts; and operating
weather satellites. However, we have identified major concerns in the Department’s IT
security posture and fragmented IT governance. While the Department’s Chief
Information Officer has taken steps to strengthen IT governance, we continue to find
significant security vulnerabilities in bureau systems, which could lead, and already have
led, to service disruptions and loss of sensitive information. We have identified four areas
for management attention:

                    •   continue improving the Department’s IT security posture by
                        addressing persistent security weaknesses

                    •   develop resilient incident response and recovery capabilities with
                        increased monitoring of Internet traffic

                    •   manage the Department’s IT portfolio with enhanced governance
                        structure

                    •   strengthen oversight of IT investments

4. Implement Framework for Acquisition Project Management and Improve Contracts
   Oversight

In FY 2011, the Department obligated approximately $2.4 billion on contracts for goods
and services, including satellite acquisitions, intellectual property protection, broadband
technology opportunities, management of coastal and ocean resources, information
technology, and construction and facilities management. To maximize these funds, the
Department needs to strengthen its acquisition and contract management practices.
While it has made some progress—such as reorganizing the Office of Acquisition


                                                 3
Management to more directly address major acquisition initiatives and implementing an
Acquisition Center of Excellence, which will consolidate acquisition support for the
Department’s smaller bureaus, our audits continue to find weaknesses in how the
Department plans, administers, and oversees its contracts. We have identified four areas
for management attention:

                   •   implementing the planned framework for acquisition project
                       management

                   •   overseeing high-risk contracts

                   •   maintaining an acquisition workforce that holds bureau officials
                       accountable

                   •   implementing an effective suspension and debarment program

5. Reduce Risks of Cost Overruns, Schedule Delays, and Coverage Gaps for NOAA’s Satellite
   Programs

Managing risks in the acquisition and development of the next generation of
environmental satellites is a continuing challenge for the Department. The two most
prominent programs, the Joint Polar Satellite System (JPSS) and the Geostationary
Operational Environmental Satellite-R series (GOES-R), together account for one-third
of NOAA’s FY 2013 budget request. They are also the largest investments in the
Department, comprising nearly 20 percent of the Department’s budget. The satellites will
provide data and imagery for weather forecasting—including severe-storm tracking and
alerting—and the study of climate change. Operating environmental satellites and
weather forecasting are designated as primary mission-essential functions of the
Department because they help lead and sustain the nation in the event of a catastrophe.
Yet, because of cost overruns, schedule delays, and the aging of NOAA’s current
constellation of satellites, NOAA is confronting coverage gaps for these critical assets.

Strong program management and close oversight of these programs are needed to
manage risks that inevitably lead to cost overruns, schedule delays, and coverage gaps for
the critical capabilities these programs will provide. Based on our work with these
programs, we have identified four areas for management attention:

                   •   communicating with stakeholders to define JPSS capabilities,
                       schedule, and cost baselines

                   •   ensuring adequate leadership and governance structure over JPSS
                       development

                   •   developing a plan to support NOAA weather forecasting
                       capabilities during coverage gaps

                   •   reducing program risks associated with GOES-R development


                                                4
This concludes my prepared statement, and I will be pleased to respond to any questions
you or the other Subcommittee members may have.




                                              5
